OIG Investigative Reports, Former Barton County Basketball Coach Pleads Guilty
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR IMMEDIATE RELEASE
December 12, 2005
Headquarters
1200 Epic Center
301 N. Main
Wichita, Kansas 67202
(316)269-6481
FAX (316)269-6484
Contact: Jim Cross
Tel: (316)269-6481
Topeka Office
444 Quincy
Topeka, Kansas 66683
Kansas City Office
500 State Avenue
Suite 360
Kansas City, Kansas 66101
FORMER BARTON COUNTY BASKETBALL COACH PLEADS GUILTY
WICHITA, Kan. – United States Attorney Eric Melgren announced that Ryan Wolf,
33, Martinsville, Indiana, entered a guilty plea on December 12, 2005, before U.S. District
Judge Wesley E. Brown to one count of misapplication of student assistance; two counts
of theft of federal funds; and one count of mail fraud.
Wolf admitted that he was employed as the men's assistant or head basketball
coach/instructor at Barton County Community College in Great Bend, Kansas, from May of
1998 through 2003. His duties included coaching the men’s basketball team, teaching courses,
serving as an academic advisor to student athletes and supervision of student athletes
participating in the campus and federal work study programs. Wolf admitted that on several
occasions, he participated and assisted student athletes with the completion of Free
Application for Federal Student Aid (FAFSA) forms. More than once, he filled out and
caused the completion of the FAFSAs with false information. Specifically, the FAFSAs were
completed to state that a certain student athlete would have a high school diploma or GED by
the time he enrolled at BCCC, when Wolf knew this was not true. Wolf knew that these
specific students would not be eligible for federal financial aid if the form stated that the
students would not have their high school diploma or GED by the time of their enrollment.
Wolf further admitted that he did not complete the “preparer” portion o f the FAFSAs on these
occasions as required.
Wolf admitted that on or about September 6, 1999, Carlton Baker was an 18 year old
resident of Indiana. Mr. Baker did not graduate from high school or obtain a GED certificate
prior to attending BCCC. Furthermore, Mr. Baker has not completed home schooling or
passed a DOE approved ability to benefit test. Wolf prepared or caused the preparation of a
FAFSA form for Mr. Baker which represented that Mr. Baker would have a high school
diploma or GED before he enrolled at BCCC. Wolf knew that this was false. Based upon this false statement, between July 5, 2000, and June 30, 2001, Mr. Baker received approximately
$6,800.00 in Pell Grants and federally guaranteed subsidized student loans.
BCCC also had a campus work study program which was subsidized by funds from
sources other than the federal government. This program allowed BCCC to provide
compensation to qualified students that BCCC employed under its campus work study
program. It was a requirement of BCCC that all payments to qualified students were to be
made for work actually performed by the students, and proper documentation was to be
maintained for all such work and compensation.
Wolf was authorized by BCCC to designate student athletes for employment under the
Federal Work Study Program and the campus work study program. It was part of the Wolf’s
duties and responsibilities to supervise the work of these student athletes and to maintain
proper documentation of the work they performed. This documentation included time sheets
that were prepared to reflect the date and hours worked by the student athlete. These time
sheets were to be completed honestly and signed by the appropriate student athlete and the
appropriate supervisor, who in many instances was Wolf. Wolf did not require these student
athletes to work as represented on the time sheets. Despite the failure of these student athletes
to perform work under the Federal Work Study Program and the campus work study program,
Wolf knowingly and willfully, prepared and submitted (or approved the preparation and
submission) of time sheets which falsely represented that student athletes performed work as
part of these programs and, as such, were entitled to be paid. Wolf admitted that from January
1, 1999, through 2003, $71,981.75 in campus work study program funds were misapplied,
embezzled, obtained by fraud and converted without authority. Wolf further admitted that
during this same time, $17,633.70 in Federal Work Study Program funds were misapplied,
embezzled, obtained by fraud and converted without authority to the use of another.
Wolf admitted that he participated in a scheme involving academic fraud at BCCC.
Wolf admitted that on numerous occasions he completed or facilitated the completion of
academic work on behalf of student/athletes. Wolf admitted that he paid another to take a
GED test offered at Warrent Central High School in Indianapolis, Indiana, in the name of
Carlton Baker. This individual passed the GED test, in the name of Carlton Baker. The GED
certificate issued in the name of Carlton Baker was provided to BCCC on or about August 13,
2001, and became part of Mr. Baker’s academic file. With the completion of this requirement,
Mr. Baker was eligible to earn and did obtain an associate degree from BCCC. Mr. Baker’s
official transcript was mailed from BCCC to San Jose State University on June 26, 2001, and
August 13, 2001. Based upon this information, San Jose State University believed that Mr.
Baker was eligible to enroll at San Jose State University and to play NCAA Division I
basketball, when in fact he was not eligible to play basketball. This information also had the
effect of representing that Mr. Baker was eligible to receive federal student assistance, when
in fact he was not. By participating and assisting others in the completion of this scheme to
defraud, Wolf deprived the San Jose State University and BCCC of the good and honest
services of Mr. Baker.
Wolf faces a maximum of five years in federal prison, without parole, for
misapplication of student assistance; a maximum of ten years on each count of theft of federal
funds; and a maximum of twenty years for mail fraud. Sentencing is set for February 27,
2006, at 10:00 a.m. Wolf remains on bond pending sentencing.
Melgren commended the excellent work of the U.S. Postal Inspection Service and the
U.S. Department of Education, Office of Inspector General, in this investigation.
Top
Printable view
Share this page
Last Modified: 12/15/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov